                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00912-192


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

       South Texas Veterans 

        Health Care System 

        San Antonio, Texas 





June 25, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
               CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCN        Primary Care Network
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                    CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. Acting VISN Director Comments .......................................................................                        15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              19

  F. Report Distribution .............................................................................................            20

  G. Endnotes ...........................................................................................................         21





VA OIG Office of Healthcare Inspections
               CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of May 5, 2014, at the following
CBOCs which are under the oversight of the South Texas Veterans Health Care System
and Veterans Integrated Service Network 17:

    Beeville CBOC, Beeville, TX

    Frank M. Tejeda Satellite CBOC, San Antonio, TX

    San Antonio Area Primary Care Network (PCN) CBOC, San Antonio, TX

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review.                However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	    External signage clearly identifies the building as a VA CBOC at the Beeville CBOC.

	    Managers maintain clean carpets at the Frank M. Tejeda Satellite CBOC.

	    All identified environment of care deficiencies at the Beeville and San Antonio PCN
      CBOCs are reported to and tracked by the parent facility’s Environment of Care
      Committee until resolution.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Registered Nurse Care Managers receive motivational interviewing and health
      coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	    Document that medication reconciliation was completed at each episode of care
      where the newly prescribed fluoroquinolone was administered, prescribed, or
      modified.

	    Document the evaluation of patient’s level of understanding for the flouroquinolone
      medication education.




VA OIG Office of Healthcare Inspections                                                      i
               CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX


Comments
The Acting VISN and Facility Directors agreed with the CBOC and PCC review findings
and recommendations and provided acceptable improvement plans. (See Appendixes
C and D, pages 15–18, for the full text of the Directors’ comments.) We consider
recommendations 1 and 4 closed. We will follow up on the planned actions for the open
recommendations until they are completed.




                                                        JOHN D. DAIGH, JR., M.D. 

                                                       Assistant Inspector General for 

                                                          Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                      ii
                   CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                          1
                 CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                         CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the Beeville,
Frank M. Tejeda Satellite, and San Antonio PCN CBOCs. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement.
Table 2. EOC

NM                    Areas Reviewed                                          Findings
 X     The CBOC’s location is clearly identifiable       The Beeville CBOC’s location was not clearly
       from the street as a VA CBOC.                     identifiable from the street as a VA CBOC at the
                                                         address provided by the parent facility.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
 X     The CBOC is clean.                                Carpeted areas at the Frank M. Tejeda Satellite
                                                         CBOC were not clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas
       (e.g., MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.



VA OIG Office of Healthcare Inspections                                                                     3
                         CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX


NM               Areas Reviewed (continued)                                Findings
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
 X     EOC rounds are conducted semi-annually             EOC deficiencies at the Beeville and
       (at least twice in a 12-month period) and          San Antonio PCN CBOCs were not reported to
       deficiencies are reported to and tracked by the    and tracked by the parent facility’s EOC
       EOC Committee until resolution.                    Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that external signage clearly identifies the building as a VA CBOC at the
Beeville CBOC.



VA OIG Office of Healthcare Inspections                                                                4
                         CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX


2. We recommended that managers maintain clean carpets at the Frank M. Tejeda Satellite
CBOC.

3. We recommended that all identified environment of care deficiencies at the Beeville and
San Antonio Primary Care Network CBOCs are reported to and tracked by the parent facility’s
Environment of Care Committee until resolution.




VA OIG Office of Healthcare Inspections                                                                5
                         CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 35 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                     Areas Reviewed                                        Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 4 of 27 RN Care Managers did
       received motivational interviewing training        not receive motivational interviewing training
       within 12 months of appointment to PACT.           within 12 months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 3 of 27 RN Care Managers did
       received VHA National Center for Health            not receive health coaching training within
       Promotion and Disease Prevention-approved          12 months of appointment to PACT.
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

4. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing and health coaching training within 12 months of appointment
to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                                    6
                         CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 6 (15 percent) of 40 patient
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 8 (20 percent) of 40 patients.
       education provided.
       The facility complied with local policy.

Recommendations

5. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

6. We recommended that staff document the evaluation of patient’s level of understanding for
the flouroquinolone medication education.




VA OIG Office of Healthcare Inspections                                                                     7
                         CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                8
                                                               CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX
                                                                                                                                   Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                        Uniques4                                    Encounters4

                               Station                  CBOC
       Location        State              Locality5                   MH7         PC8        Other9        All        MH7         PC8       Other9       All
                                  #                      Size6
    Frank M.                                           Very
    Tejeda Satellite   TX      671BY     Urban         Large          11,543      11,948     17,091      26,019      54,982      30,867     43,030     128,879
    North Central
    Federal, San                                       Very
    Antonio            TX      671GO     Urban         Large           2,109       7,324       7,819     11,744       7,508      16,547     18,476      42,531
    San Antonio
    Area PCN           TX      671GK     Urban         Large                0      5,625       2,006       5,791            0     9,097      3,476      12,573
    South Bexar
    County             TX      671GF     Urban         Mid-Size        1,199       4,480       2,375       4,963      4,079      11,662      6,747      22,488
    Victoria           TX      671GB     Urban         Mid-Size        1,267       3,027       2,121       3,202      4,347       9,566      8,889      22,802
    New Braunfels      TX      671GL     Urban         Mid-Size             0      1,551         303       1,588            0     2,868        384        3,252
    Seguin             TX      671GN     Rural         Small                0        549           56        554            0       952          79       1,031
    Beeville           TX      671GH     Rural         Small                0        373           39        376            0     1,570          54       1,624




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         9
                    CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                  Specialty Care                                                 Tele-Health
               CBOC                                             Ancillary Services12
                                    Services11                                                   Services13
    Frank M. Tejeda               Orthopedics                      Radiology                    Tele Primary
    Satellite                      Optometry                       Audiology                        Care
                                   Neurology                Pulmonary Function Test
                                 General Surgery                   Pharmacy
                                                                Diabetic Retinal
                                                                   Screening
                                                                Diabetes Care
                                                                  Social Work
                                                                    Nutrition
    North Central                   Gynecology                     Radiology                    Tele Primary
    Federal                                                     Mammography                         Care
                                                                   Pharmacy
                                                                Diabetic Retinal
                                                                   Screening
                                                               MOVE! Program14
                                                                    Nutrition
                                                                  Social Work
    San Antonio Area                      ---                          ---                      Tele Primary
    PCN                                                                                             Care
    South Bexar County                    ---                    MOVE! Program                  Tele Primary
                                                                                                    Care
    Victoria                          Podiatry                      Pharmacy                    Tele Primary
                                                                     Nutrition                      Care
                                                                 Diabetic Retinal
                                                                    Screening
                                                                 MOVE! Program
    New Braunfels                         ---                          ---                      Tele Primary
                                                                                                    Care
    Seguin                                ---                             ---                        ---
    Beeville                              ---                             ---                          ---



 


10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/). 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           10
                                                             CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX
                                                                                                                                 Appendix B


                                                         PACT Compass Metrics




                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.

VA OIG Office of Healthcare Inspections                                                                                                                 11
                                                              CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.

VA OIG Office of Healthcare Inspections                                                                                                                     12
                                                             CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s assigned
primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of primary care
encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                 13
                                                             CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                    14
               CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX
                                                                                   Appendix C
                        Acting VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       June 11, 2014

          From: 	      Acting Director, VA Heart of Texas Health Care Network
                       (10N17)

       Subject: 	      CBOC and PCC Reviews of the South Texas Veterans
                       Health Care System, San Antonio, TX

             To:       Director, Dallas Office of Healthcare Inspections (54DA)

                       Director, Management Review Service
                       (VHA 10AR MRS OIG CAP CBOC)

       1. Thank you for allowing me to respond to this Community Based
          Outpatient Clinic (CBOC) and Primary Care Clinic Review of the
          South Texas Veterans Health Care System, San Antonio, Texas.

       2. I concur with the recommendations and have ensured that action plans
          with target dates for completion were developed.

       3. If you have further questions regarding these CBOC & PCC reviews,
          please contact Denise B. Elliott, Quality Management Officer at
          817-385-3734.




VA OIG Office of Healthcare Inspections                                                     15
               CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX
                                                                                   Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:       June 11, 2014

          From:        Director, South Texas Veterans Health Care System
                       (671/00)

       Subject:        CBOC and PCC Reviews of the South Texas Veterans
                       Health Care System, San Antonio, TX

             To:       Director, VA Heart of Texas Health Care Network (10N17)

       South Texas Veterans Health Care System submits the attached
       document.




       Marie L. Weldon, FACHE 

       Director, South Texas Veterans Health Care System (671/00) 





VA OIG Office of Healthcare Inspections                                                     16
               CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that external signage clearly identifies the
building as a VA CBOC at the Beeville CBOC.

Concur

Target date for completion: May 15, 2014

Facility response: The external signage for the Beeville CBOC was installed 5/15/14.

Recommendation 2. We recommended that managers maintain clean carpets at the
Frank M. Tejeda Satellite CBOC.

Concur

Target date for completion: September 30, 2014

Facility response: The carpets within the Frank M. Tejeda Satellite CBOC are being
vacuumed nightly and shampooed weekly. The Building Owner plans to replace the
carpet in the waiting areas with a combination of new carpet and tile by July 30, 2014,
and all other carpeting before the end of FY 14 (September 30, 2014).

Recommendation 3. We recommended that all identified environment of care
deficiencies at the Beeville and San Antonio Primary Care Network CBOCs are reported
to and tracked by the parent facility’s Environment of Care Committee until resolution.

Concur

Target date for completion: September 30, 2014

Facility response: Reporting of environment of care deficiencies and resolutions at
contract CBOCs will be added as a standing agenda item for the Environment of Care
Committee. 


Recommendation 4.            We recommended that CBOC/Primary Care Clinic

Registered Nurse Care Managers receive motivational interviewing and health coaching 

training within 12 months of appointment to Patient Aligned Care Teams. 


Concur

Target date for completion: June 2, 2014



VA OIG Office of Healthcare Inspections                                                     17
               CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX


Facility response: CBOC newly hired Primary Care Clinic RN Care Managers will
receive MI and health coach training (TEACH for Success) within 12 months of
appointment to PACT, using three strategies to ensure compliance: (1) Nurse managers
will alert Health Promotion Disease Prevention (HPDP) Staff of all new
RN Care Managers hired and their date of hire; (2) HPDP staff will add MI and TEACH
to each new RN Care Manager’s TMS learning plan, with a due date of 9 months from
date of appointment to PACT; (3) Introduction to HPDP Program, the HPDP Staff, and
MI & TEACH Requirements added to the Primary Care New Employee Checklist for
RN Care Managers.       This comprehensive training plan was implemented on
June 2, 2014, and will be sustained through the joint efforts of Primary Care and
Nursing Services.

Recommendation 5.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: September 30, 2014

Facility response: Each provider of care prescribing, administering or modifying a
fluoroquinolone prescription will document reconciliation of medications for the Veteran
patient. This will be accomplished through the medication reconciliation documentation
process. Quality Management will monitor 30% of patients prescribed fluoroquinolones
at patient appointment for 90% compliance for a period of not less than 90 days to
ensure compliance.

Recommendation 6. We recommended that staff document the evaluation of patient’s
level of understanding for the flouroquinolone medication education.

Concur

Target date for completion: September 30, 2014

Facility response: A mandatory element will be added to the After Visit Summary (AVS)
and Medication Reconciliation templates to include a statement regarding the education
provided to the patient and patient’s response to education. Quality Management will
monitor 30% of patients prescribed fluoroquinolones at patient appointment for
90% compliance for a period of not less than 90 days to ensure compliance.




VA OIG Office of Healthcare Inspections                                                     18
               CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Rose Griggs, MSW, LCSW, Team Leader
Contributors            Larry Ross, MS
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Cathleen King, MHA, CRRN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     19
               CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX
                                                                                   Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Heart of Texas Health Care Network (10N17)
Director, South Texas Veterans Health Care System (671/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz
U.S. House of Representatives: Joaquin Castro, Lloyd Doggett, Blake Farenthold,
 Pete Gallego, Rubén Hinojosa, Randy Neugebauer, Lamar Smith, Mac Thornberry,
 Filemon Vela


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     20
                   CBOC and PCC Reviews at South Texas Veterans Health Care System, San Antonio, TX
                                                                                       Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    21
